IN THE
SUPREME COURT OF THE UNITED STATES
No.
CHARLES R. HUNTER,
Applicant,
v.
UNITED STATES OF AMERICA; STERLING MORTGAGE
AND INVESTMENT COMPANY
Respondents.
APPLICATION TO THE HON. SONIA SOTOMAYOR FOR
AN EXTENSION OF TIME TO FILE A PETITION FOR A
WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

Pursuant to Supreme Court Rule 13(5), Charles R. Hunter (“Applicant”),
hereby move for a 45-day extension of time, to and including September 12, 2019, to
file a petition for a writ of certiorari. Unless an extension is granted, the deadline for
filing the petition for certiorari is July 29, 2019.
In support of this request, Applicant state as follows:
1.

The United States Court of Appeals for the Sixth Circuit rendered its

decision on April 30, 2019 (Exhibit A). This Court has jurisdiction under 28 U.S.C.
§1254(1).
2.

This appeal involves whether the government waived sovereign

immunity under the federal quiet title statute, 28 U.S.C. § 2410, where Applicant did
not retain a current interest in the subject property. Both the district court and the
Sixth Circuit Court of Appeals held that Applicant could not quiet title to the subject

property under 28 U.S.C. § 2410 because he did not retain such an interest.
3.

Between now and the petition’s current due date, Applicants’ counsel,

Daniel W. Weininger, has substantial briefing obligations, including a motion for
leave to appeal in Royzenshteyn v. Pathak, MON-C-45-18 (N.J. App. Div.) and a
response to the government’s motion to dismiss petitions to quash summonses in
Karcho-Polselli v. United States, 19-cv-10956 (E.D. Mich.). Mr. Weininger is also
responsible for drafting the appellant’s brief in Estate of Richie Majors v. Gerlach, No.
19-1457 (6th Cir.), which is currently due on August 1, 2019.
4.

Applicants request a modest extension for counsel to prepare a petition

that fully addresses the complex issues raised by the decision below and frames those
issues in a manner that will be most helpful to the Court.

2

For the foregoing reasons, Applicant requests that an extension of time to and
including September 12, 2019, be granted within which Applicant may file a petition
for a writ of certiorari.
Respectfully submitted,
DANIEL W. WEININGER
Counsel of Record
ABRAHAM & ROSE, P.L.C.
30500 NORTHWESTERN HWY., STE. 410
FARMINGTON HILLS, MI 48334
(248) 251-0594
weiningerlaw@gmail.com
Counsel for Applicant

July 15, 2019

3

